       DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                           Washington, D.C. 20201




August 31, 2010

TO:            Francis S. Collins, M.D., Ph.D.
               Director
               National Institutes of Health


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Superfund Financial Activities at the National Institute of Environmental Health
               Sciences—Fiscal Year 2009 (A-04-10-01076)


This final report provides the results of our audit of Superfund financial activities at the National
Institute of Environmental Health Sciences (NIEHS) for fiscal year (FY) 2009. We conducted
the audit to comply with provisions of the Comprehensive Environmental Response,
Compensation, and Liability Act of 1980 (CERCLA), which requires the Inspector General of a
Federal organization with Superfund responsibilities to audit all uses of the Superfund.

BACKGROUND

NIEHS, located in Research Triangle Park, North Carolina, is 1 of 27 institutes and centers of the
National Institutes of Health (NIH), which is a component of the Department of Health
& Human Services. NIH provides NIEHS with direction and other administrative and
professional services.

The CERCLA mandated the establishment of the Hazardous Substance Response Trust Fund,
which is commonly known as the Superfund. The CERCLA was extended and amended by the
Superfund Amendments and Reauthorization Act of 1986. The Superfund is used to respond to
emergency environmental conditions that are hazardous to health and to pay for the removal of
toxic substances.

NIEHS receives funding to carry out functions mandated by the CERCLA. In carrying out its
Superfund responsibilities for FY 2009, NIEHS obligated about 5 percent of these funds for
administrative costs and awarded the remaining 95 percent to other organizations to:

   •    train persons who are engaged in handling hazardous waste and managing facilities
        where hazardous waste is located and
Page 2 – Francis S. Collins, M.D., Ph.D.


   •    conduct research, including advanced techniques, methods, and technologies to detect,
        assess, and evaluate the effects of hazardous substances on human health and to reduce
        the amount and toxicity of those substances.

From October 1, 2008, through September 30, 2009, NIEHS obligated about $78 million and
disbursed about $78 million in Superfund resources. Of the $78 million in disbursements,
$5.1 million was related to FY 2009 funds. The remaining $72.9 million was related to prior
periods.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Superfund costs recorded by NIEHS were allowable,
allocable, and reasonable in accordance with applicable laws and regulations.

Scope

The scope of our audit included FY 2009 Superfund obligations and disbursements obligated
between FYs 2004 and 2009. We did not audit disbursements by grantees; these awards are
subject to independent audits under 45 CFR § 74.26.

We performed fieldwork at NIEHS in Research Triangle Park, North Carolina, in June 2010.

Methodology

NIEHS provided a financial transaction listing of all Superfund obligations and disbursements
recorded from October 1, 2008, through September 30, 2009. The listing included grant and
interagency agreement obligations of $74,503,950 and nongrant obligations of $3,472,756. The
$74,503,950 of grant and interagency agreement obligations consisted of $74,551,000 in
obligations of FY 2009 funds and $47,050 in reductions to obligations of prior-year funds. In
addition, the listing included grant and interagency agreement disbursements of $74,642,035 and
nongrant disbursements of $3,401,573.

NIEHS entered into agreements with universities, unions, other organizations, and another
Federal agency to carry out its responsibilities under the CERCLA. We verified $73 million of
obligations against grant award documents for 70 research and training grants. We also traced
$1.5 million of interagency agreement obligations to the interagency agreement document.

We determined whether grantees had submitted current audits in accordance with the regulation
and analyzed report data to determine whether the reports contained any significant findings
related to the Superfund. In addition, we performed a limited review of NIEHS monitoring
activities for 21 judgmentally selected grants.
Page 3 – Francis S. Collins, M.D., Ph.D.


We reviewed NIEHS’s internal controls to the extent necessary to accomplish the objective of
the audit. We limited our review to obtaining an understanding of controls over funding
authority, financial reporting, and grants.

Because audits in past years contained no findings under administrative costs, we limited our
testing of administrative disbursements to comparing administrative disbursements recorded
during FY 2009 with administrative disbursements recorded during the previous FY.

We reviewed the FY 2008 Superfund audit report (report number A-04-09-01062) and
determined that the report contained no findings requiring followup.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

RESULTS OF AUDIT

The Superfund financial transactions for the period October 1, 2008, through September 30,
2009, were allowable, allocable, and reasonable in accordance with applicable laws and
regulations. These Superfund transactions related to FYs 2004 through 2009 funds.

In general, NIEHS took appropriate action to ensure that its Superfund grantees submitted
required audit reports.

                                             *****

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

As this report contains no recommendations, no response is necessary. However, if you have any
questions or comments about this report, please do not hesitate to call me, or have your staff
contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and Information
Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer
to report number A-04-10-01076.
